                                                        ADVISORY




              OFFICE OF
              INSPECTOR GENERAL 

              U.S. DEPARTMENT OF THE INTERIOR




    RECOVERY OVERSIGHT ADVISORY


    Indian School Replacement, Improvement and Repair
    Programs




Report No.: ROO-ROA-BIA-2008-2010                       April 27, 2010
requirements on project management and procedures for progress payment documentation and
submission.

       From June through September 2009, we identified internal controls that were established
by the Office to manage the three programs. We visited three project sites (one for each of the
programs) to verify the scope of work and determine how aware tribal officials were of their
Recovery Act responsibilities. We identified problems concerning a premature advance of funds,
an incomplete scope of work, an unauthorized release of funds, and a failure to educate on
whistleblower protection. We also determined a promising practice for project management.

Premature Advance of Funds

        The Mississippi Band of the Choctaw Indians (Mississippi Band) was awarded a 297
grant totaling $2,549,533 on August 12, 2009, for 17 minor improvement and repair projects at
six schools. Per the terms of the grant, the Mississippi Band was issued an advance payment of
$1,283,4523 on August 18, 2009, for six projects anticipated to be completed within the first
three months of its effective date. The projects included the installation of energy-efficient
systems at three schools and the replacement of metal canopies, boilers, and the high school’s
gymnasium roof. The Mississippi Band, however, had issued only one contract ($267,884) for
re-roofing of the Central High School gymnasium as of October 14, 2009.

        During our visit in August, we learned that although the Mississippi Band was aware of
the Recovery Act projects, it had not developed scopes of work for each project, procurement
plans, or the project implementation schedules, each of which should be in place to effectively
identify which projects could be implemented within the first three months of the grant for
computing the advance payment. The Office acted prematurely in advancing funds for five of the
six projects.

Incomplete Scope of Work

        The Oglala Sioux Tribe of Pine Ridge, SD, was going to receive $4,143,000 for major
improvements and repairs to the Pine Ridge Elementary School classroom and gymnasium
buildings. Gymnasium work included renovating mechanical and plumbing systems, adding an
electrical transformer and power distribution panel, and replacing damaged floor tiles and
windows. All the work was to be accomplished under one 638 contract.

        We found that much of the gymnasium’s northern external wall was unfinished during
our inspection on September 2, 2009. The adjoining roof edge was also damaged. A project
official stated that Office officials were aware of these conditions, but declined to include the
repairs under the Recovery Act project’s scope of work. Office officials agreed to add the repair
work to the project after we met and discussed our observations and concerns on September 23,
2009.




   3
     The total amount advanced was $1,329,297, which included $45,845 for a Recovery Act on-the-job training program that
   the Mississippi Band was going to manage for the Office.



                                                                                                                            2
        Project costs increased and the technical drawings were delayed because the repairs were
not included in the original scope. The project budget has now been revised to $4,236,868, and
both the Office and the Tribe signed the contract in December 2009.

Unauthorized Release of Recovery Act Funds

       Two regional Bureau of Indian Education (BIE) offices released 100 percent of the
Recovery Act funds for repair projects (three minor and one major), even though the schools
were only authorized to receive a small advance payment (followed by monthly progress
payments based on completed work) under the 297 grant terms and conditions. When the Office
became aware of the overpayments, it notified BIE on October 22, 2009, and requested each
school be sent a bill of collection for the $2,949,508. The regional BIE officials subsequently
requested that the schools return the overpayments.

        Grant amendment terms and conditions address procedures for both advance and progress
payments, specifically to prevent this problem. The Office and BIE had also signed two
Memoranda of Understanding for the improvement projects, dated September 16, 2009, which
distinguished between the duties of an Office project manager and a BIE Education Line Officer4
and also between the following activities: project monitoring, review, and payment request
processing.

       We spoke with a regional Education Line Officer whose office issued the funds and a
person from the regional Office responsible for monitoring the projects. We noticed confusion
regarding their respective roles.

Failure to Educate on Whistleblower Protection

        During our visit to the Rough Rock School construction site, we noted that the
contractor’s employee bulletin board for Federal and state labor and occupational protection
regulations failed to display a notice about the whistleblower protection provisions in Section
1553 of the Recovery Act.

        The whistleblower provisions protect employees for disclosing information such as the
inappropriate use of funds, serious wrongdoing or gross mismanagement. These protections were
recently extended to the employees of non-Federal employers with the enactment of the
Recovery Act. Although it has been incorporated into the Office’s 638 contracts and 297 grants,
the potential benefit is diminished because neither the tribe nor its subcontractors are required to
educate their employees about the protection.

Promising Practice: Internet-Based Project Management Service

        During our visit to the Pine Ridge School in South Dakota, we learned that the
construction contractor used a web-based service to manage project documents, including
technical drawings, inspection approvals, and progress-payment requests, and would also be
using it with the Recovery Act project.
   4
     Education Line Officers, who work for the Bureau of Indian Education, are the Grant Officers for each of the P.L. 100-297
   grants at Tribal schools within their region. They have authority and responsibility to approve all grant amendments and to
   release the grant funds to the tribes.



                                                                                                                             3
        A real-time project management program is especially advantageous when key project
personnel are separated by distance. In this case, the contractor and inspector are in Pine Ridge at
the project site, the Office project manager is in Albuquerque, NM, and the contract manager is
in Omaha, NE. Viewing and working with the same set of project records from different
locations saves both costs and time in the duplication and transfer of documents.

        One vendor estimated a cost savings from $5,100 to $15,200 for construction projects
ranging between $1 million and $75 million, respectively. The same vendor said that typical
subscription fees for the service ranged from $1,050 for projects $1 million or less to $5,950 for
projects ranging from $12 to $15 million.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs ensure that:

        1.	 The Office determines which Mississippi Band projects will not be completed in
            accordance with grant terms and obtains a refund of those advance payments. Further,
            the Office assesses each tribe or school board’s project planning efforts before
            computing advance payments.

        2.	 The Office ensures building repairs and improvements are funded enough to be
            completed and fully functional.

        3.	 The Office and BIE eliminate confusion about the roles and responsibilities of
            personnel in charge of the accountability and transparency of Recovery Act funds.

        4.	 The Office directs all tribes and contractors to post information about whistleblower
            protections on the project site.

        5.	 The Office and tribes consider using a secure web-based project management system
            for Recovery Act construction projects.

cc: 	   Deputy Secretary, Department of the Interior
        Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Director, Bureau of Indian Education
        Assistant Secretary – Policy, Management, and Budget
        Director, Office of Acquisition and Property Management
        Acting Director, Office of Financial Management
        Department GAO/ OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, Indian Affairs
        Director, Office of Facilities Management and Construction (OFMC), IA
        Recovery Coordinator, Assistant Secretary, Indian Affairs




                                                                                                     4
